                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

    Case Number: A06040010                                                                       Page 1 of 2



I
          We received an allegation that 6 previously declined NSF proposals' were available on a
          graduate student's website, whose advisor3served as an NSF panelist for all 6 declined
          proposals. We opened an inquiry to determine why these declined NSF proposals were placed on
          a public website, whether the advisor gave the graduate student access to these NSF proposals,
          and if so, for what purpose.

          We spoke to the graduate student and learned that he had received the proposals from his advisor
          for the purpose of reviewing certain sections within his area of expertise. He stated that while he
          did not recall the specifics with respect to these declined proposals, it was a fairly routine task for
          him to answer specific questions for his advisor regarding research issues within his area of
          expertise. However, he denied writing the actual reviews. The graduate student was surprised to
          learn that these proposals were available via his website, as'he had only placed them on his
          internal drive to which only he should have had access. He noted that this was an IT security
          problem and that he would follow up with IT regarding this problem. He agreed to take the
          proposals off of his internal drive immediately after our discussion.

          We then contacted the advisor to inform him that these proposals were made available to the
          public and to ask him if he provided these proposals to his graduate student, and if so, for what
          purpose. We also asked him to address whether he requested permission of the NSF Program
          Director (PD) before doing so, as required by the NSF Form 1230P, Conflict-of-Interests and
          Confidentiality Statement for NSF Panelists that he signed.

          The advisor cooperated fully, appeared to understand the gravity of the situation, and responded
          that he did not realize that any proposals were available on a public website, and that he deeply
          regretted the breach of confidentiality. He stated that while he did not remember the specific
          circumstances by which he provided these proposals to his graduate student, he normally did so
          in order to research specific issues outside of his area of expertise. After reviewing the
          confidentiality statement that he signed as a panelist, he apologized for having breached that
          agreement by providing the proposals to his graduate student without permission from NSF. He
          now recognized that this was wrong and promised not to do so again. He stated that he wrote all
          of the reviews, and that the graduate student's role was limited to researching specific issues or
          concepts included in the proposals.




NSF OIG Form 2 (1 1/02)
                                         NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                           OFFICE OF INVESTIGATIONS

                                    CLOSEOUT MEMORANDUM




After consulting with the NSF P D , ~
                                    we concluded that the advisor is now well aware of his duty
to maintain proposals that he reviews in strictest confidentiality. In addition, he clearly
understands that he must request and obtain permission from NSF before sharing any such
proposals with his graduate students or other colleagues in the future.

We sent a letter to the advisor reiterating his obligations as NSF panelist. No further OIG action
is warranted.

Accordingly, this case is closed.
